No:

3fa tf)e

Supreme Court of tfje QEntteb States
EDWIN JASSIEL PERALTA-CASTRO,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PROOF OF SERVICE
I, Edwin Jassiel Peralta-Castro, do swear declare that on this day,_*1_

day of

August 2020, as required by Supreme Court Rule 29,1 have served the enclosed
Petition for Writ of Certiorari, on the Solicitor General of the United States, Room
5614, Department of Justice, 10th Street and Constitution Ave., N.W., Washington,
D.C. 20530, and every other person required to be served via First Class Prepaid
Postage.

Done this

^), day of August 2020.
Respectfully submitted,
Edwin Jassiel Peralta-Castro
Register Number: 97057-379
Big Spring Cl
2001 Rickabaugh Dr
Big Spring, TX 79720

